FILED

DEC 0 2 2019

No.

,Th TUC

FRK

3rt Mix

r me Court of e Matt
Supreme Court. U.S
FILED

DEC 0 2 2019

Khashon Haselrig,
Applicants,

OFFICE OF THE CLERK

V.
Stephanie Inslee,
Respondents.

APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI
To the Honorable Elena Kagan
Associate Justice of the United States Supreme Court
and Circuit Justice for the Ninth Circuit

Khashon Haselrig, pro se
809 NW 153 Terrace
Edmond, Oklahoma 73013
Phone: (405) 618-2722
Email: kdoekay@gmail.com

O

To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit:
Applicant-Petitioner, Khashon Haselrig ("Applicant") respectfully requests an
extension of time to file a petition for writ of certiorari. Sup. Ct. R. 13.5. The earliest
deadline for Applicant to file his petition is Monday, Dec 3, 2019, which is ninety
days from September 4, 2019, the date when the Washington State Supreme Court
issued an order denying review of a Division I decision affirming disinheritance of
Khashon Haselrig by application of an in terrorem clause for his complaint of
executor misconduct. For good cause set forth herein, Applicants ask that this
deadline be extended by sixty days so that the new deadline would be Friday,
January 31, 2020.
BACKGROUND
This case arises from a copy of a missing will being admitted to probate ex
parte, without evidence it was lost or destroyed without intent to revoke, and
without notice on Dec 19, 2016. Haselrig was the moving party in a motion heard on
Feb 10, 2017 stating that admitting a copy of the missing will without notice to
interested parties or a hearing as required by RCW 11.20.070 and RCW 11.96A.110
was a due process error. He motioned the Trial Court recognize this was
misfeasance of the personal representative and executor Stephanie Inslee. He asked
the Court remove the personal representative for failure to; give notice to known
interested parties, having his grandmother (Margaret Raichoudhury) cremated
without consulting himself or his family, hold a funeral, or alert any family
members she had died. Haselrig asked that the estate be reset to the default
intestate status as occurs when a person dies without an original will as a matter of
law (as was the case), and to be named executor. The decedent's daughter Indira

Raichoudhury joined Haselrig's motion via her attorney. Indira Raichoudhury was
not named as an interested party in the petition to admit the missing will to probate
Dec 19, 2016 and no parties were notified. The motion to correct the due process
error on Dec 19, 2016 was denied on Feb 10, 2017.
On Aug 25, 2017 with the probate still ongoing, Haselrig brought a second
motion based solely on defective notice with the addition that arguments made on
Feb 10, 2017 indicated notice was willfully defective and that the admission of the
missing will without hearing on Dec 19, 2016 was an act of fraud upon the Court.
Haselrig noted that according to Hesthagen v. Harby, 78 Wn. 2d 934 (Wash. 1971),
probates that do not adhere to statutory notice requirements produce void
judgements, and as such a due process error can and is required to be corrected
under the 14th Amendment without specific time constraints. This motion was also
denied and the Court determined Haselrig triggered the in terrorem clause of the
will and would be disinherited. The Court did not state notice was given according
to due process and struck that section from its order given at APP B, rather it
determined it was not authorized to correct any error due to time limits imposed by
rules. Haselrig appealed.
On appeal to Division I Haselrig argued he had probable cause, acted in good
faith, and did not directly attack the missing will, but only the illegal actions taken
by those proffering it. He also referenced Armstrong v. Manzo, 380 U.S. 545, 551
(1965) and the fact that in that case the petitioner also failed to appeal when their
motion to correct defective notice was originally denied, but ultimately had their
original motion granted and essentially restarted their trial. The Appellate Court
affirmed the decision APP A, but did not address how, when, or if notice was given
in accordance with due process. The Supreme Court of Washington denied review

. ✓
and denied request for attorneys' fees of respondent APP C.

OPINIONS BELOW
The February 25, 2019 Order of the Division I Appellate Court for the State of
Washington affirming the Probate Court appears at Appendix A. The August 25, 2017
and Feb 10, 2017 Order of the Bellingham Washington Probate Court denying
Haselrig's corrective motions is reproduced at Appendix B. The September 4, 2019
Order of the Washington State Supreme Court denying review is reproduced at
Appendix C. The Order and Petition for Order granting admission of the copy of the
missing will is reproduced at Appendix D.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1257.
REASONS EXTENSION IS JUSTIFIED
Supreme Court Rule 13.5 provides that "An application to extend the time to
file shall set out the basis for jurisdiction in this Court, identify the judgment sought
to be reviewed, include a copy of the opinion and any order respecting rehearing, and
set out specific reasons why an extension of time is justified." Sup. Ct. R. 13.5. The
specific reason why an extension of time is justified is as follows:
Khashon Haselrig's work obligations left him with only enough time to
research and prepare the writ of certiorari with the help of an online guide for pro se
litigants, however the guide did not mention and the rules did not so clearly indicate
that filing on standard 8 V2 x 11" paper was only permissible for in forma pauperis
eligible applicants, as opposed to pro se applicants generally. Due to this the petition
is prepared but the intricate formatting necessary to present argument is not

complete. The delay would only be the time needed for the petition to be placed into
the specified booklet format. Haselrig became aware of the problem only after calling
to verify the address and method to mail documents and payment to the U.S.
Supreme Court.
CONCLUSION
For the foregoing reasons and good cause shown, Applicants respectfully
request that this Court grant this application for an extension of time to file a petition
for writ of certiorari.

Respectfully submitted,

Khashon Haselrig, pro se

Date

P/0,2/301?

